fan!

C@OCKLE

2311 Douglas Street j E-Mail Address:
€ TL
Omaha, Nebraska 68102-1214 L ga | B ree f s contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-1184

NIKKI BRUNI, ET AL.,
Petitioners,

Vv.
CITY OF PITTSBURGH, PENNSYLVANIA, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 29th day of April, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE CENTER FOR
CONSTITUTIONAL JURISPRUDENCE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required
to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:

SEE ATTACHED

To be filed for:
JOHN C. EASTMAN
ANTHONY T. CASO
Counsel of Record
Claremont Institute’s Center for
Constitutional Jurisprudence
c/o Dale E. Fowler School of Law
Chapman University
One University Drive
Orange, CA 92866
(877) 855-3330
caso@chapman.edu

Counsel for Amicus Curiae

Subscribed and sworn to before me this 29th day of April, 2020. |
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

EAAL NOTARY-State of adraska f fe }
= Tan Sao Knee, ! Upon Qud caw he

Notary Public Affiant 39725

My Comm. Exp. September 8, 2023

 

 
 

Attorneys for Petitioners

 

 

Third Floor, City County Building
Pittsburgh, PA 15219

Party name: City of Pittsburgh, et al.

 

michael.kennedy@pittsburghpa.gov

John J. Bursch Alliance Defending Freedom (616) 450-4235
Counsel of Record 440 First Street NW
Suite 600
Washington, DC 20001
jbursch@adflegal.org
Party name: Nikki Bruni, et al.
Attorneys for Respondents
Michael Edwin Kennedy _ City of Pittsourgh Law Department (412) 255-2025
Counsel of Record Associate City Solicitor
414 Grant Street

 

 
